i

No.20-6614
SUPREME COURT OF THE UNITED STATES

Derek N. Jarvis,
Petitioner

filed
VS .

MAR 10 2021

Isiah Leggett, Et A1.,
Respondent(s)

On Petition For A Writ Of Certiorari To The
Maryland Court Of Appeals
PETITION FOR REHEARING

Derek N. Jarvis, Petitioner
2316 Jones Lane
Silver Spring, Maryland 20902
(301) 252-9781

Isiah Leggett, Respondent(s)
Montgomery County Executive
County Attorney(s)
Erin Ashbarry, Esquire
Associate County Attorney
101 Monroe Street
Third Floor
Rockville, Maryland 20850
Tel: (240) 777-6700

RECEIVED

MAR 2 3 2021
SUPREME*

-TABLE OF CONTENTS-

TABLE OF CONTENTS

i

TABLE OF AUTHORITIES
PETITION FOR REHEARING

1

REASONS FOR GRANTING THE PETITION
Maryland Court of Special Appeals, Failed to Follow
Supreme Court Precedent, And Contradicts
The Supreme Court............................................................

1

CONCLUSION

v

-TABLE OF AUTHORITIESCASES

PAGE

Monell, 436 U.S. at 690

1

Busby vs. City of Orlando, 931 F.2d 764, 776
(11th Cir.1991)

1

Truax vs. Corrigan, 257 U.S., 312, 332

2

City of Canton, 489 U.S. at 694

2

Santiago vs. Fenton, 891 F.2d 373, 381
(1st Cir. 1989)

2

Ex Parte Town of Landesboro, 950 50.2d 1203, 1207

3

ACLU Vs. Wicomico County, 999 F.2d 780, 785
(4th Cir.)

3

Connick vs. Thompson, 563 V. s. 51, 61 (2011)

4

Evans-Reid, supra, 930 A.2d at 937 n.6

4

Rochin vs. California, 342 U.S. 165 (1952)

4

Harlow vs. Fitzgerald, 457 U.S. 800, 818 (1982)

4

GROUNDS FOR PETITION

JURISDICTION

The Court entered an order denying the Petition for
writ of certiorari on February 22, 2021. As stated in Petitioner’s
certification pursuant to Rule 44.2, attached to the end of this
Petition. This Petition is restricted to addressing intervening
circumstances of controlling effect, specifically, the impact
of this Court's decision in Monell, where the Supreme Court
determined that local government bodies may be held liable
under 1983, based on it's individual agents or employees.............
that resulted in a violation of the plaintiff's rights. 436 U.S.
at 690.
A government agency may be held liable, when the execution
of the governments policy or custom 'causes' the injury'. City of
Canton, 489 U.S. at 694 (finding government liability appropriate
where official policy was the moving force behind the constitutional
violation'). See Monell, 436 U.S. at 694. In this case,

Isiah

Leggett in this case, is liable for his officials violating
Plaintiff's constitutional rights, when it threatened and harassed
Plaintiff Jarvis, and denied Plaintiff the right to file a civil
rights complaint, depriving Plaintiff Jarvis of his rights to due
prpcess.
In Farmer vs. Brennan, 522 U.S. 834, 842, the Supreme
Court held that, an official would be liable even if they had
mere suspicions, but declined to investigate them. Id-

PETITION FOR REHEARING
Pursuant to Sup.Ct.R. 44.1, Petitioner, Derek Jarvis,
respectfully,

petitions this Court for an order 1) granting

Rehearing, 2) vacating the Court's February 22, 2021 order
denying Certiorari, and 3) vacating

the judgment, and remanding

to The Maryland Court of Appeals for further consideration to
keep uniformity with the older Supreme Court established case
law-authorities such as, In Monell, The Supreme Court determined
that local governmental bodies may be held liable under 1983,
based on it's individual agents or employees

that resulted

in a violation of the plaintiff's rights. 436 U.S. at 690.
'Because suits against a municipal officer sued in
his/her official capacity, and direct suits against municipalities
are functionally equivalent. There no longer exist a need to
bring official-capacity actions against local government
officials, because local government units, such as a County
Executive or Mayor, can be sued directly". Busby vs. City of
Orlando, 931 F.2d 764, 776 (llth Cir. 1991).
REASONS FOR GRANTING THE
REHEARING
THE COURT SHOULD GRANT REHEARING TO CLARIFY WHETHER LOCAL OFFICERS
HAVE IMMUNITY FOR THREATENING AND MALICIOUS ACTS THAT VIOLATE
PETITIONER'S RIGHTS TO DUE PROCESS AND DEPRIVED HIM OF HIS
RIGHTS
The Maryland Appeals Court, must have clarity on
whether County Officials were immune when it violated Petitioner
Jarvis's rights, and deprived him of his rights, when they called
and threatened Petitioner Jarvis, if he filed a complaint with
any agency in the County with respect to civil rights violations.

1

The due process clause requires that every man shall have
the protection of his day in Court. Truax vs. Corrigan, 257 U.S.
312, 332.
THE MARYLAND COURT OF APPEALS UNREPORTED OPINION CONFLICTS WITH
THE SUPREME COURT AND FAILS TO FOLLOW SIMILAR CASES
A government agency may be held liable, when the
'execution of the governments policy or custom,

'causes the

injury. City of Canton, 489 U.S. at 694 (finding government
liability appropriate where official policy was the moving
force behind the constitutional violation'). See Monell, 436
U.S. at 694. Santiago vs. Fenton, 891 F.2d 373, 381 (1st Cir. 1989).
Here, in this case, Leggett is liable, because an Official
Michael Subin who was an official in his office,
to contact authorities on Petitioner Jarvis,

threatened

if he filed a

civil rights complaint with any agency in Montgomery County.
The lower Court's erred and conflicted with the Supreme Court,
and it's own precedent, when it held., that, 'Isiah Leggett was
not liable,-because he was not personally involved', which
conflicts with it's own precedent in that Court, and similar
cases.
CONTRARY TO THE MARYLAND APPEALS COURT, AND COURT OR SPECIAL
APPEALS-SUITS AGAINST A MUNICIPAL OFFICER AND SUITS AGAINST
MUNICIPALITIES SUCH AS THE COUNTY EXECUTIVE IN THIS CASE
ARE FUNCTIONALLY EQUIVALENT
The Unreported Opinion by The Maryland Appeals Court
is inconsistent with this Court, and conflicts with similar
rulings in this court,

Isiah Leggett is liable in this case

as he is the County Executive in Montgomery County Maryland,
and Michael Subin is an Official who works in the Office of The
County Executive.
2

Claims against state officers in their official capacity
are functionally equivalent to claims against the 'entity they
represent'• E.g., Ex Parte Town of Landesboro, 950 50.2d 1203,
1207.
In this case, the lower court erred, and failed, to follow
this court's precedent, as well as failed to follow similar cases
in this court, as it was unecessary to bring suit against Michael
Subin, and other County Officials, because they were all Officials
employed in the County Executive Isiah Leggett's Office and were
County employees in their official capacity. The 11th Circuit
has held, local government units, such as Isiah Leggett who was
the County Executive, can be sued directly, as a result of the
malicious act(s) of his County Officials,

and suits against

municipal officers such as Isiah Leggett and municipalities
are 'functionally the same'. Id.
"Because suits against a municipal officer sued in his/her
capacity, and direct suits against municipalities, are functionally
equivalent. There no longer exist a need, to bring official-capacity
actions against local government officials, because local
government units, such as Isiah Leggett in Montgomery County,
can be sued directly". Busby vs. City of Orlando, 931 F.2d 764,
776 (11th Cir. 1991).
Thus, retaliation by a public official such as Michael
Subin, for the exercise of a constitutional rights, such as filing
a civil rights complaint, is actionable. See ACLU vs. Wicomico
County, 999 F.2d 780, 785 (4th Cir. 1993). Thus,Isiah Leggett,
is liable for the malicious act(s) of
Officials and employees.
3

his individual agents

Monell claims based on a failure to adequately train, show
a deliberate difference to the rights of persons with who the
[u]ntrained employees, come into contact. Connick vs. Thompson,
563 V. S. 51, 61 (2011).
In order to prevail on a negligence cause of action, the
Plaintiff must prove 'the applicable standard of care, a deviation
from that standard by defendant, and. a causal relationship between
that deviation, and. the plaintiff's injury. Evans-Reid, supra, 930
A. 2d at 937 n.6. In this case, Isiah Leggett, and his Officials
failed

in that standard of care as Montgomery County Officials

when they threatened Petitioner Jarvis, deviating from that standard
of care, depriving Petitioner Jarvis of his rights and

due

process, engaging in malicious and deliberate acts which caused
injury to Petitioner Jarvis and irreparable harm, as Petitioner
Jarvis did not file complaint as a result of County Officials
threats and malicious acts.
Government Officials act outside the law, and are personally
liable when their conduct 'shocks the conscious', or offends the
community's sense of fair play'. Rochin vs. California, 342 U.S.
165 (1952).
When conduct violates 'clearly established statutory or
constitutional rights of which reasonable persons would have
known that, " the official is not protected by immunity'. Id.
(quoting Harlow vs. Fitzgerald, 457 U.S. 800, 818 (1982).
As a consequence of Isiah Leggett's illegal conduct, and violations
of Petitioner's constitutional rights in facilitating the unlawful
acts, after filing state complaint against Isiah Leggett before
litigation, certiorari is warranted, as Isiah Leggett condoned
the unlawful acts by his Officials.
4

CONCLUSION
For the foregoing reasons above, Petitioner Jarvis,
reguests that the Court 1) grant rehearing of the order denying
his petition for writ of certiorari in the case, 2) vacate the
Court's February 22, 2021 order denying certiorari, and 3)
grant the petition for certiorari, vacate judgment, and remand
to the Maryland Court of Appeals for further consideration and
in uniformity with Monell and other similar cases that conflict
with the lower courts. The Maryland Appeals Courts ruling
conflicts with this Court, and the unreported opinion is
inconsistent with the Supreme Court, conflicting with similar
rulings. The Unreported opinions by Maryland Appeals Courts
are also unconstitutional as the rulings are not in line with
'stare decisis' and fail to follow historical cases or this
Court.

Respectfully submitted,

Derek N. Jarvis, Petitioner_pro se
2316 Jones Lane
Silver Spring, Maryland 20902
Tel : (301) 252-9781

